<html>
<title> - OVERSIGHT OF THE UNITED STATES CAPITOL POLICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


             OVERSIGHT OF THE UNITED STATES CAPITOL POLICE

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2019

                               __________

      Printed for the use of the Committee on House Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
        https://www.govinfo.gov/committee/house-administrationl
                   Committee on House Administration
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-607                     WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                   
                  
                   
                             116th Congress

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
SUSAN A. DAVIS, California             Ranking Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California
                            
                            
                            C O N T E N T S

                              ----------                              

                             JULY 16, 2019

                                                                   Page
Oversight of the United States Capitol Police....................     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
    Prepared statement of Chairperson Lofgren....................     4
Hon. Rodney Davis, Ranking Member................................    47
    Prepared statement of Ranking Member Davis...................    49

                               WITNESSES

Hon. Paul D. Irving, Sergeant at Arms, U.S. House of 
  Representatives................................................     6
    Prepared statement by Hon. Irving............................     8
Hon. Steven A. Sund, Chief of Police, United States Capitol 
  Police.........................................................    12
    Prepared statement of Hon. Sund..............................    14
Hon. Michael A. Bolton, Inspector General, United States Capitol 
  Police.........................................................    24
    Prepared statement of Hon. Bolton............................    26
Mr. Gus Papathanasiou, Chairman, U.S. Capitol Police Labor 
  Committee......................................................    33
    Prepared statement of Mr. Papathanasiou......................    35

                        QUESTIONS FOR THE RECORD

Hon. Paul D. Irving, Sergeant at Arms, U.S. House of 
  Representatives, responses.....................................    54
Hon. Steven A. Sund, Chief of Police, United States Capitol 
  Police, responses..............................................    60
Hon. Michael A. Bolton, Inspector General, United States Capitol 
  Police, responses..............................................    87
Mr. Gus Papathanasiou, Chairman, U.S. Capitol Police Labor 
  Committee, responses...........................................    97

 
             OVERSIGHT OF THE UNITED STATES CAPITOL POLICE

                              ----------                              


                         TUESDAY, JULY 16, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 9:58 a.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[Chairperson of the Committee] presiding.
    Present: Representatives Zoe Lofgren, Jamie Raskin, G.K. 
Butterfield, Marcia L. Fudge, Pete Aguilar, Rodney Davis of 
Illinois, Mark Walker, and Barry Loudermilk.
    Staff Present: Sean Jones, Legislative Clerk; Jamie Fleet, 
Majority Staff Director; David Tucker, Parliamentarian; Khalil 
Abboud, Deputy Staff Director; Aaron LaSure, Professional Staff 
Member; Lauren Doney, Communications Director and Deputy Chief 
of Staff for Mr. Raskin; Lisa Sherman, Chief of Staff for Mrs. 
Davis of California; Veleter Mazyck, Chief of Staff for Ms. 
Fudge; Evan Dorner, Legislative Assistant for Mr. Aguilar; Kyle 
Parker, Senior Policy Advisor for Mr. Butterfield; Peter 
Whippy, Communications Director; Jennifer Daulby, Minority 
Staff Director; Timothy Monahan, Minority Director, Oversight; 
Cole Felder, Minority General Counsel; Susannah Johnston, 
Legislative Assistant for Mr. Loudermilk; Nicholas Crocker, 
Minority Professional Staff; and Courtney Parella, Minority 
Communications Director.
    The Chairperson. Good morning to our Members, witnesses, 
and guests. This morning, we will discuss the important work of 
the United States Capitol Police.
    Let me begin by thanking you and your families for your 
service to the Congress and the Nation. We are grateful to you 
for your work every day.
    The United States Capitol Police and its men and women have 
a long history of service. To put this tradition in 
perspective, the department is older than half the 50 States. 
For nearly two centuries, its officers have protected those who 
work in and visit the Capitol complex. Two years ago, Mr. Davis 
and our other Republican colleagues on the Committee saw their 
bravery firsthand. When a gunman opened fire at a baseball 
practice, the lives of many of our colleagues were threatened 
and Republican Whip, Mr. Scalise, was nearly killed.
    The intervention of the Capitol Police and local law 
enforcement undoubtedly made the difference that day. Officers 
Crystal Griner and David Bailey helped save many lives despite 
being injured. Next week, we will commemorate the ultimate 
sacrifice made by two other members of the force. July 24th 
will mark the 21st anniversary of the murder of officer Jacob 
Chestnut and Detective John Gibson, two brave Capitol Police 
officers who gave their lives in the Capitol Building 
protecting the Congress.
    The example of these four heroes is a powerful reminder 
that, day in and day out, the women and men of the department 
dutifully stand watch protecting Members, staff, and the 12 
million people who visit the Capitol complex each year, ready 
to put themselves in harm's way, if necessary.
    The officers of today's Capitol Police have something in 
common with the first four members of the force back in 1828: a 
noble commitment to public service that could, in the blink of 
an eye, entail putting their lives on the line to protect 
others.
    But the 1,918 sworn officers and 366 civilian employees of 
today's force operate in a vastly different world with threats 
and challenges that sometimes seem to change by the day.
    This Committee's job is to ensure that the Department, like 
any other legislative branch agency, successfully executes its 
core mission in a complex and changing world. Our witnesses 
here today represent the leadership of the Department, 
including our representative to the Police Board, our brand new 
Chief, the new Inspector General, and the President of the 
union. Each of you has a vital role to play in keeping the 
Congress secure and operating.
    The Committee's oversight includes ensuring the United 
States Capitol Police continue to critically review its 
policing practices to ensure those practices evolve and are 
refined based on best practices and new information. We want to 
make sure the Department is focused on its core mission, 
protecting Congress, and has enough resources to do so.
    Threats to Members are coming from new places, from the 
private messages of social media platforms to intense 
interactions at public events and townhalls. We must understand 
how the Department is adapting to the new threat environment. 
We also want to understand more about how the Department is 
operating from your intelligence collection and assessment to 
your own internal cybersecurity practices and posture.
    Moreover, the police must seek to ensure the diversity of 
its employees by establishing sound recruiting practices and 
sound employee diversity training. A diverse workforce is a 
strong workforce and investing in training and development will 
telegraph to the rank-and-file officers of the Department that 
Congress is committed to investing in you and your career and 
that there are more opportunities for you to compete for roles 
of increasing and different responsibilities.
    With respect to workforce issues, the Committee is 
concerned with the status of the relationship between the 
United States Capitol Police executive management and the 
Fraternal Order of Police Labor Committee. The current 
collective bargaining agreement was last ratified 3,325 days 
ago on June 8, 2010, and negotiations to establish a new 
contract have failed to produce a new agreement. It is our hope 
that labor and management come to the table and reach an 
agreement that is fair for employees and productive for 
management.
    As the U.S. Capitol Police completes its second century of 
service to the Congress and the Nation, it should be a 
bipartisan goal of this Committee and the Congress to ensure 
that it has the resources it needs and continues to fulfill its 
core mission. The Committee's oversight of the Department 
stewardship of those resources and continued development of its 
employees is one of our highest priorities.
    I will recognize the Ranking Member, Mr. Davis, when he 
arrives for his opening statement, and other Members are 
invited to put their opening statements into the record.
    I will now recognize our witnesses joining us today.
    The Honorable Paul Irving, House Sergeant at Arms, is the 
36th person to serve as Sergeant at Arms, having previously 
served as Assistant Director of the United States Secret 
Service and a special agent with the Service for 25 years. Mr. 
Irving's experience includes service on the Presidential 
protective details for President George H.W. Bush and President 
Bill Clinton.
    The Honorable Steven Sund is the Chief of Police. Chief 
Sund has been Chief for 33 days. Welcome. He has served the 
prior two and a half years as Assistant Chief and Chief of 
Operations. Chief Sund came to the Department from the 
Metropolitan Police Department, where he began his career in 
1990 as a patrol officer. The Chief was steadily promoted, 
retiring as Commander of the Special Operations Division where 
he was the lead planner for the 2009 and 2013 Presidential 
Inaugurations as well as the incident Commander for the 2009 
shooting at the Holocaust Museum, the 2012 shooting at the 
Family Research Council, and the 2013 active shooter incident 
at the Navy Yard.
    Michael A. Bolton is the Inspector General of the United 
States Capitol Police. Mr. Bolton has been with the Department 
since 2006, serving as agency's first assistant Inspector 
General for investigations and, later, as the acting Inspector 
General until his selection for the permanent position in 
January of this year.
    Gus Papathanasiou, he introduced himself to me as Pop, is 
the Chairman of the Fraternal Order of Police. He joined the 
Department in 2003 and first became involved in the FOP in 2006 
when he became a shop steward. From 2009 until 2016, he was the 
union's first Vice Chairman, and he was elected as Chairman in 
2016.
    As I said earlier, I ask unanimous consent that all Members 
have five legislative days to revise and extend their remarks 
and that written statements be made part of the record.
    Now, I will remind our witnesses that your full statements 
will be made part of this official record. We ask that you 
summarize your testimony in about five minutes. I think you are 
familiar with the little light warning system on the desk. When 
it turns yellow, you have a minute left. Red, time is up. And 
then we will go to questions by the members.
    We will start with you Mr. Irving.
    [The statement of The Chairperson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
 STATEMENTS OF THE HONORABLE PAUL D. IRVING, SERGEANT AT ARMS, 
 U.S. HOUSE OF REPRESENTATIVES; THE HONORABLE STEVEN A. SUND, 
 CHIEF OF POLICE, UNITED STATES CAPITOL POLICE; THE HONORABLE 
  MICHAEL A. BOLTON, INSPECTOR GENERAL, UNITED STATES CAPITOL 
 POLICE; AND GUS PAPATHANASIOU, CHAIRMAN, U.S. CAPITOL POLICE 
                        LABOR COMMITTEE

           STATEMENT OF THE HONORABLE PAUL D. IRVING

    Mr. Irving. Chairperson Lofgren, Ranking Member Davis, and 
Members of the Committee, thank you for the opportunity to 
testify today on the oversight of the U.S. Capitol Police.
    It is an honor and a privilege to serve this institution, 
and I look forward to continuing to partner with the Committee 
on the oversight of the Capitol Police priorities and execution 
as this year progresses.
    As the House Sergeant at Arms, I serve as a member of the 
three-person Capitol Police Board, which also includes the 
Senate Sergeant at Arms and the Architect of the Capitol. By 
law, the Board is charged with the appointment of new Chief of 
Police. I am proud to testify here with the recently appointed 
Chief of Police Steven Sund.
    I am also very appreciative of Michael Bolton, who was 
appointed Inspector General of the Capitol Police this year. 
The Inspector General serves as a key partner in collaborations 
to make the Capitol Police a better and more efficient 
institution.
    I am also glad to be here with Gus Papathanasiou, call him 
Gus or Big Papa; that is easier for me. As Chairman of the 
Capitol Police Labor Committee, he is a strong--a strong and 
effective partnership between the Labor Committee and the 
Capitol Police is necessary to accomplish the Capitol Police's 
mission.
    The Capitol Police's mission is broad and challenging, 
designed to both protect buildings and people of our democracy. 
In the past several years, the challenges have become greater. 
For example, this year, the Capitol Police has responded to and 
investigated an immense number of threats and directions of 
interest against House Members. The Capitol Police is on the 
front line of this effort, and I commend their hard work as 
they investigate each threat.
    I interact daily with the Chief and members of his 
executive management team, ensuring proper coverage of Member 
events, the progress of Capitol Police initiatives impacting 
Members, staff, and visitors, and the day-to-day security 
issues impacting the campus.
    The Capitol Police Board meets at a minimum monthly serving 
as an oversight and governance structure of the Capitol Police. 
The Board works with the Capitol Police to develop its future 
strategy, melding the best law enforcement practices with the 
business processes of the institution that we serve. In 
addition to the development of law enforcement strategies, the 
Capitol Police Board also focuses on good governance of the 
resources of the Capitol Police that the Capitol Police 
receives.
    In regard to oversight, the Board periodically requests 
that the IG examine a host of ongoing issues regarding 
strategic direction, ongoing operations, such as intelligence, 
cybersecurity, and dignitary protective operations, as well as 
financial and budget accountability and resource management. 
The Inspector General serves as a vital partner in the Capitol 
Police Board's governance review of the Capitol Police. The 
Board relies on reports we receive from the Inspector General 
on the closure of audit findings to ensure the Capitol Police 
are effectively improving their own governance.
    I am very appreciative of the Capitol Police Labor 
Committee's efforts to improve the working conditions and 
quality of life of the hardworking men and women of the Capitol 
Police. The Capitol Police Board worked with Gus last year as 
we spearheaded a waiver of the biweekly pay cap, and we have 
also supported other FOP initiatives and priorities so 
important to our dedicated officers who are on the front line 
of ensuring our safety and security every day.
    Most importantly, the Capitol Police serve as a vital 
partner to the office of the Sergeant at Arms. Day to day, my 
office is working with the Department to help deliver better 
security outcomes to Members, staff, and visitors. I believe 
these day-to-day interactions help illustrate the close 
interaction between my office and the Capitol Police from which 
I can analyze the effectiveness and customer focus of the 
Capitol Police.
    Thank you once again for the opportunity to appear before 
the Committee. I am so appreciative for the Committee's 
unyielding support and partnership as we strive to maintain the 
delicate balance between strong security measures and a free 
and open access to the Capitol complex.
    I am happy to answer any questions you may have.
    [The statement of Mr. Irving follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    Chief, we would be pleased to hear from you for five 
minutes.

           STATEMENT OF THE HONORABLE STEVEN A. SUND

    Chief Sund. Good morning, Chairperson Lofgren, Ranking 
Member Davis----
    The Chairperson. I think the microphone needs to be turned 
on. There is a little button there.
    Chief Sund. Let me try that again.
    The Chairperson. Better.
    Chief Sund. Good morning, Chairperson Lofgren, Ranking 
Member Davis, and Members of the Committee. Thank you for the 
opportunity to update you on the operations, workforce, and 
priorities in carrying out our missions to protect Congress and 
to secure the Capitol complex. I am pleased to be joining Paul 
Irving, House Sergeant at Arms, and members of the Capitol 
Police; Michael Bolton, U.S. Capitol Police Inspector General; 
and Gus Papathanasiou, Chairman of the United States Capitol 
Police Fraternal Order of Police and part of the panel. Each of 
them plays an important role in our success and operations, and 
I appreciate and respect their input and working relationship.
    This week marks my first month as Chief. Having served in 
law enforcement for more than 27 years, the past two and a half 
years as Assistant Chief, I cannot think of a more noble place 
to serve our country as a law enforcement officer than at the 
U.S. Capitol. I am truly honored to be selected for this 
position, and I appreciate all the hard work my civilian and 
sworn colleagues do each day to make my department successful.
    I want to thank the Committee for the opportunity to lead 
this outstanding organization. I appreciate your continued 
support as well as Congress' generosity in providing the 
resources we need to support our critical mission. The type of 
policing we do is unlike any other police department. It is 
highly specialized to focus on the unique requirements of 
protecting our legislative process and the First Amendment 
rights of our citizens, maintaining an open and accessible 
campus, and preventing crime and terrorism. Our daily reality 
is that the U.S. Capitol remains a desired target for 
assailants both domestic and foreign. Therefore, we continually 
assess the risk and adjust our strategies for addressing any 
threats.
    Over the past five years, the number of threats that we 
have been investigating have steadily increased. As a result, 
we work closely with the Capitol Police Board to augment and 
strengthen how we protect Members of Congress. My priorities 
and focus areas for the U.S. Capitol Police include enhancing 
Member protection both on and off campus; further enriching the 
professionalism of the Department through training, modern 
equipment, and leadership; and investing in our employees, from 
recruiting to retirement, and to encourage personal and 
professional growth and development.
    Protecting Congressional facilities is a key part of our 
overall operation. We recently began implementing our security 
plan for the Rayburn Garage. We are now training our officers 
and will begin staffing garage security posts in the very near 
future. We are working with the Sergeant at Arms and our 
oversight committees on plans to communicate a new procedure 
prior to their implementation.
    We are also working on ensuring that we have the 
appropriate level and scope of leadership and supervision to 
successfully carry out our mission. This has required a 
critical look at our organization. I am continuing this 
evaluation and look forward to discussing recommendations with 
the Capitol Police Board. To ensure the department's continued 
success, we will continue to grow its diversity to include the 
representation of women and underrepresented populations as 
well as the inclusion of thoughts and expressions. Our 
diversity office continues to lay strong foundations for 
promoting and institutionalizing diversity, equity, and 
inclusion throughout the organization.
    Over the past three years, we have focused on peer support 
and crisis management, inclusive mentoring to support career 
advancement, and succession planning, and increased our 
cultural competencies.
    In regard to our recruiting efforts, our new recruits 
consist of the top 1 percent of those who apply to our 
department. We have been successful in recruiting a diverse 
groups of applicants. For example, our most recent graduates 
have a wealth of talents and experience and many of them are 
skilled in languages, to include Arabic, Creole, German, 
Gujarati, Italian, and Spanish and that is just one graduating 
class. Several of our officers have prior military services, 
and all have a deep commitment to our mission.
    It is not enough to simply attract the best. We also 
provide our employees with training they need to grow 
professionally, the equipment and systems they need to work 
effectively, and the proper tools to ensure they maintain a 
well-rounded life. Over the next 18 months, this department 
will play a critical role in developing security plans for the 
Democratic and Republican National Conventions and the 
Presidential Inauguration. In fact. We have already begun 
planning for the conventions and are in the initial planning 
stages for the Inauguration.
    For 191 years, the United States Capitol Police have 
quietly and professionally protected Congress, staff, and 
visitors from harm. As Chief, I will continue building upon 
this legacy.
    Again, I want to thank the Committee for this opportunity 
to testify. I look forward to continuing to work with you to 
ensure we successfully accomplish our mission today while 
preparing for the challenges and opportunities for tomorrow.
    I would be happy to answer any questions that you have. 
Thank you.
    [The statement of Chief Sund follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you.
    Mr. Bolton, we would love to hear from you for five 
minutes.

          STATEMENT OF THE HONORABLE MICHAEL A. BOLTON

    Mr. Bolton. Thank you.
    Good morning, and thank you for the opportunity to appear 
before the Committee on House Administration to discuss 
oversight of the United States Capitol Police.
    I have been with the Inspector General's Office since 2006 
when it was stood up and was appointed as the Inspector General 
in January 2019. I would like to thank the Committee for its 
sustained unwavering support of the United States Capitol 
Police Office of Inspector General.
    The OIG is dedicated to ensuring that the department, 
Board, and committees are accurately informed of audit and 
investigative reviews through a submission of our independent 
reports. These comprehensive reports serve the department in 
achieving the goals of their mission in providing a financially 
responsible operation as well as a safe and secure environment 
for all Members, staff, public employees, and visitors to the 
Capitol complex.
    However, none of this would be possible without the support 
of Congress and that of the Capitol Police Board. We very much 
appreciate our discussions with you and your staff about our 
work and future projects. These discussions have provided us 
with a regular opportunity to provide the Committee with 
important updates about our activities, challenges, and focus.
    By providing objective information for promoting government 
management decision making and accountability, the OIG 
contributes to the agency's success. OIG is an agent of 
positive change, focusing on eliminating waste, fraud, and 
abuse, and identifying problems and recommendations for 
corrective actions by agency leadership. OIG provides the 
agency, Board, and Congress with objective assessments and 
opportunities to be more successful.
    The Office of Inspector General is comprised of three areas 
of responsibilities: audits, investigations, and 
administrations. As you may well know, investigations maintains 
the OIG hotline, a confidential channel for complaints or 
concerns about violations of laws or regulations, gross waste 
of funds, abuse of authority, or mismanagement.
    Annually, the OIG prepares a summary of the most 
significant management challenges facing the Department. The 
challenges reflect continuing vulnerabilities that OIG 
identified over the last several years as well as new and 
emerging issues the department will face in the coming year. 
The top management challenges that face the Department are, 
one, protecting and securing the Capitol complex; two, 
strengthening cybersecurity strategies to address increasing 
threats; three, strong integrated internal control systems; 
four, managing Federal contracting more effectively; and, five, 
human capital management.
    Protecting and securing the Capitol complex from terrorists 
and weapons of mass destruction while at the same time 
protecting Congress and its staff and welcoming the public 
continues to be a major challenge. In several reports, OIG made 
recommendations designed to bolster Capitol complex security. 
For example, OIG recommended that the department expand its 
counter surveillance prescreening program by including 
Committee hearings as well as outside entry points, such as 
garages.
    Congress has indicated that cybersecurity threats are one 
of the most serious economic and national security challenges 
facing our Nation and that America's economic prosperity in the 
21st century will depend on cybersecurity. As cybersecurity 
threats become increasingly sophisticated, more numerous, 
Capitol Police faces the challenge of reevaluating and 
expanding traditional approaches to security information 
technology systems. Although making progress in improving human 
capital operations during the past year, the department 
sometimes lacks the basic management and capabilities needed to 
effectively and efficiently implement new programs and 
policies. The Department faces new and more complex challenges, 
including budget constraints, recruitment, training of new 
officers, and involving security threats. At this time, the 
Department is in the process of formulating a strategic plan 
for fiscal year 2020 and beyond, which provides the department 
an opportunity for ensuring diversity, inclusion, equity, and 
associated data analytics at the forefront for the Department 
and its employees. In addition, OIG will continue to review 
policies and procedures related to discipline as the department 
moves forward in this ever-changing environment.
    For fiscal year 2019, the Department challenges remain at 
five. But overall progress has been made possible by the 
actions of the Chief, Chief Administrative Officer, and the 
leadership and staff within the department.
    Thank you for the opportunity to appear before you today. I 
would be very happy to answer any questions the Committee may 
have.
    [The statement of Mr. Bolton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    We will hear from our last witness, the Chairman of the 
Fraternal Order of Police, Mr. Papathanasiou. Am I close?

                 STATEMENT OF GUS PAPATHANASIOU

    Mr. Papathanasiou. You got it. Thank you.
    The Chairperson. Good.
    Mr. Papathanasiou. Good morning, Chairperson Lofgren, 
Ranking Member Davis, and Members of this Committee. I would 
like to, once again, thank you for giving me the opportunity to 
testify before you in this setting on behalf of the FOP USCP 
Labor Committee. Again, I am deeply humbled and honored to 
testify before on behalf of the men and women that protect this 
institution daily.
    As I enter my 17th year with the U.S. Capitol Police, I 
have been with the union's executive board for over a decade. 
Joining me today are members of my executive board, 1st Vice 
Chairman Keith McFaden; 2nd Vice Chairman Vinny Summers; and 
former union Chairman, Jim Konczos. Also with me is legal 
counsel for the union, Meg Meechak and Greg McGillivary.
    After I testified before this Committee last year, I had 
hoped to see some positive changes within the Department. 
However, the atmosphere has remained the same. As I stated last 
year, our labor union plays a vital role in the operation and 
success of this Department. Fostering a positive and 
constructive relationship between management and the sworn 
employees is critical to the success of this agency.
    However, there is an us-versus-them mentality that has 
existed within this Department for as long as I have been here. 
This mentality needs to end, and it needs to end now. Everyone 
who works for this Department is on the same side and has the 
same goal, and that is to protect Congress. I truly believe 
that this agency has the potential to be one of the best law 
enforcement agencies in the world. However, despite the hard 
work and dedication of the employees of this Department, I 
don't believe we are there yet.
    With the recent retirement of former Chief Verderosa, I 
quickly endorsed Chief Sund to succeed the former Chief. I felt 
that Chief Sund was the most qualified and best suited to lead 
this Department in the right direction for years to come. I 
also endorsed Inspector Tom Lloyd to be the next Assistant 
Chief with USCP Board. Chief Verderosa and I had a good working 
relationship over the last three years of his tenure, but we 
disagreed on a lot of issues, including discipline. In fact, we 
were at opposite ends of the spectrum on terminations.
    With respect to our disagreements on discipline, two months 
ago, I attended Chief Verderosa's retirement party. During his 
speech, he stated that he was responsible for hiring 1,600 
sworn officers, but he also stated that some believe that he 
may have fired 1,600 officers. Although there was some 
laughter, I didn't find that amusing one bit as I have 
personally witnessed the stress and heartache officers have 
endured over the years by the previous administrations of this 
Department.
    Chief Verderosa's comments were sickening to hear, as far 
as I am concerned. Any employee's termination is no laughing 
matter. Chief Verderosa's lighthearted comments about 
terminating employees is an example of why morale is low within 
this Department.
    The information gathered by the union about employee 
discipline shows the majority of employees proposed for 
termination in the last seven years have been minorities. This 
disturbing trend continues throughout the Department. The 
former Chief's comments were even more disturbing in light of 
the multiple terminations that have been reversed by neutral 
arbitrators, decisions that were upheld by the Office of 
Congressional Workplace Rights and even the Federal Circuit 
Court of Appeals.
    As Chief Verderosa testified last year before this 
Committee, he saw things through a different lens than the 
union. Well, maybe that lens was very foggy. The recent Federal 
Court of Appeals decisions where the union and the employees 
prevailed unanimously speaks volumes about how this Department 
has been run and how unreasonable management has been. However, 
none of these cases should have gone that far. If the 
Department had reasonable leadership with a fair-minded 
approach to its employees, this expensive and protracted 
litigation could have been avoided.
    Chief Sund and I have a good working relationship as well, 
and I hope that together we can work on resolving issues that 
can take this Department to a new level. However, I will call 
on Chief Sund to address the lack of transparency for which the 
department has suffered under previous administrations. Some of 
the issues and concerns addressed by the union, and we will 
continue to address, are improving officer morale; balance work 
and family life; pay scale and pay cap issues; parking for new 
officers; lack of training; promote career advancement; 
progressive discipline not being adhered to by the CBA; fair 
treatment of all bargaining unit members; good-faith 
negotiations; resist cuts to pensions, to the USCP, and all 
Federal law enforcement; enhance law enforcement retirements, 
as we outlined in the 2012 GAO study; the union's proposed pay 
scale compression; resolving grievances at low levels; promote 
the well-being of officers; improve working conditions. These 
are just some critical issues we need to work on collectively 
to make positive changes for this department for both 
management and employees as these issues affect us all.
    Once again, I am proud of the men and women of the United 
States Capitol Police. I am proud to be their union leader. 
This union is stronger and united than it has ever been. I 
think it is time to change how we do business and start working 
together instead of against one another.
    Thank you for allowing me to address this Committee, and I 
look forward to any questions you may have.
    [The statement of Mr. Papathanasiou follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    We will now go to Members for questions they may have. We 
will interrupt our questioning when the Ranking Member arrives 
for his opening statement.
    First, we will go to the gentleman from Georgia for his 
five minutes.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    I appreciate everyone being here. First of all, let me say 
a heartfelt thank you for all of you, from the Sergeant at 
Arms, Capitol Police, for the task that you have and the job 
that you do of making sure that this building is safe. The 
visitors that we have come to their House, the seat of their 
government, this is their property. Thank you for the work you 
are doing there and on behalf of me and my two Republican 
colleagues, all three of us were on the baseball field that 
day. We firsthand witnessed not only the aggression toward us, 
the shots being fired, but also the bravery by the Capitol 
Police officers who were willing to go in, especially David 
Bailey, who put himself in the line of fire to give me the 
opportunity to try to get to Matt Mika and Crystal Griner, who 
had been taken down right in front of us. Those are moments I 
will never forget. I think it is our responsibility to make 
sure that not only do you have the tools and the resources you 
need to do your job but work closely with you to make sure that 
it is done effectively and efficiently.
    About two years ago we received a briefing that the threats 
against Members of Congress was at a historic high.
    Chief Sund or Mr. Irving, where are we today as far as the 
threats against Members of Congress? Has it subsided some, or 
is it still growing?
    Chief Sund. Good morning, sir. Thank you very much for the 
question.
    We continue to see the threat assessment cases that we are 
opening continue to grow. For fiscal year 2018, we had 
approximately 4,894 cases and so far, for this year we have 
2502 cases so we are on par to probably break last year's 
record.
    Mr. Loudermilk. What percentage of those would you consider 
as credible threats?
    Chief Sund. Well, when you talk about as credible threats, 
we evaluate them to see if they fall within the legal framework 
of what is considered to be an actual threat to do bodily harm. 
A lower, much lower percentage of that number meet that 
threshold but they are all still very concerning. They all 
still require us to expend resources and evaluate but it is a 
much lower percentage than--I don't have the exact percentage, 
but it is a much lower percentage than the total number of 
assessment cases we received.
    Mr. Loudermilk. Okay. I know some changes were made after 
incident at the baseball field. What kind of changes from the 
Sergeant at Arms Office, and while I have you, Chief Sund, what 
policy changes were made in the Capitol Police office? I would 
like for both of you to answer no matter who goes----
    Mr. Irving. Okay. I will take it first, and then, Chief, I 
will pass it to you.
    Some of the most salient changes that we have instituted is 
a paradigm shift from traditional threat assessment that would 
yield very little, if any, Capitol Police support to a Member 
who is now receiving higher than average threats or direction 
of interest communications. We now provide enhanced support to 
their office. In terms of security services, we will liaise 
very heavily with local law enforcement in their districts to 
ensure that they are covered for public events. We ask that 
they provide us their schedule, for example. Let us know when 
they are going to making public appearances or traveling about, 
and we will coordinate with local law enforcement and, at 
times, Capitol Police depending on their activity.
    So that enhanced level of support is something that was not 
previously done to the basis that we are doing today.
    Mr. Loudermilk. Okay.
    Chief Sund. To add on that, we have worked to evaluate a 
lot of our resources, specifically some of our tactical 
capabilities and our uniform capabilities to create them into 
little more agile resources that we are deploying more often to 
provide support for Members' protection when they are locally 
in the NCR region.
    In reference to some of the comments made by Mr. Irving, we 
work very closely with the House Sergeant at Arms in evaluating 
some of the requests from the Members' office to evaluate 
events that they are having both in their districts and around 
here to coordinate law enforcement coordination to provide 
support and help provide a little additional protection for 
those events.
    Mr. Loudermilk. Okay. I know in my office I have a person 
who is my security point of contact. At some point, he is going 
to be leaving, because he is a retired Navy veteran, worked 
with the SEALs and so we are assessing someone else to come in.
    Is there a training program? If not, is there a way that we 
could develop one where we could provide some enhanced training 
to our district staff that are points of contact for security, 
how to report threats, how to secure your offices, what is the 
best practices for security for Members and staff?
    Mr. Irving. Yes, Congressman. We have a robust program, law 
enforcement coordinator program. And we interact with the 
district offices and encourage those law enforcement 
coordinators to work our office. We provide a lot of support 
documentation on how to secure Member events, what to do in 
terms of Member security not only in their office but 
residences, district office staff. We do provide security 
awareness briefings and other briefings to these law 
enforcement coordinators but certainly we will encourage 
additional training as well, which we can enhance.
    Mr. Loudermilk. Okay. Thank you.
    I yield back.
    The Chairperson. Thank you.
    The gentleman from North Carolina is recognized for five 
minutes.
    Mr. Butterfield. Thank you very much, Madam Chairperson. 
Let me just begin by associating myself with the words of Mr. 
Loudermilk as it pertains to the work of the United States 
Capitol Police and the Sergeant at Arms Office. I had nothing 
but positive experiences with both offices over the 15 years 
that I have been in Congress. So thank you very much for what 
you and your men and women do every day.
    I know that you could not do it alone. I know that you 
don't even suggest that you have done any of this alone. You 
have hundreds, if not thousands, of people who support you in 
your work and thank you. Thank you for that.
    I am told by some of my colleagues, and even some of my 
staff members, that the new Chief is a breath of fresh air. I 
don't know what that means. But I am going to find out in the 
weeks and months to come. But I am told, sir, that you are a 
breath of fresh air to the agency. And I wish you nothing but 
the best as you serve all of us. You are just not serving us as 
Members of Congress; you are serving an institution. So thank 
you for that.
    One of my favorite stories, a little levity involved in 
this. But one of my favorite stories was back January 20, 2009, 
the date of the Obama Inauguration, the first Inauguration. I 
had a guest in town who was disabled, and I had to go way out 
in northwest to pick him up and to put him in my vehicle and 
transport him to the Capitol. As I was doing so, the traffic 
was, as you can imagine, horrendous. But then I saw a street 
that was absolutely closed down. There was no traffic on the 
street.
    So, as a Member of Congress with my plate and all of that 
stuff, my pin, I thought I could go down this empty street and 
I did but what I didn't realize was that the pedestrian traffic 
had been backed up in the tunnel at that very second that I 
went down this street, the barricade was lifted, and 
immediately tens of thousands of visitors descended upon that 
street. The next thing I knew, I was right behind the Hyatt 
Regency on New Jersey Avenue. When I looked around, there were 
tens of thousands of people surrounding my car. And I could not 
move.
    So I knew I was going to miss the Inauguration. And so I 
called the Sergeant at Arms Office and they took my dilemma 
quite seriously. They contacted the United States Capitol 
Police, and they did as well. I was extricated from that 
situation. I won't go into the detail about how that happened, 
but I was extricated from that situation.
    Another story very quickly, I was on a vacation at a resort 
here in the United States. The police from that town knocked on 
the door to my hotel room and said that there had been a report 
of me committing a crime there at the beach, which was 
absolutely absurd. It was just foreign to anything that I knew 
anything about. Immediately, once I proved myself to the local 
police, they apologized and left. But the thought occurred to 
me that it could be bigger than what it appeared. So I called 
the Sergeant at Arms, the Capitol Police, just to make sure 
that I was not overreacting. I was assured that I was not 
overreacting. Immediately, the Capitol Police contacted the 
Chief of Police of the town and worked through the situation 
and made sure that I was safe from that point on.
    I just use those two examples just to say you are here for 
us, and we thank you. Thank you so very much.
    Two questions--where is my clock? I don't even see the 
clock, but two very quick questions. To the Chief, is the 
disciplinary policy and the penalties the same for all 
employees? What I mean by that is, are they the same for the 
executive management as opposed to others within the agency? Do 
the standards vary, the disciplinary standards vary?
    Chief Sund. No. The standards are the same for all sworn 
members. All members.
    Mr. Butterfield. And you intend to enforce those standards 
equally?
    Chief Sund. Yes. I intend to apply them in a fair, 
reasonable, and appropriate manner.
    Mr. Butterfield. Okay. The OIG noted one of the top 
management challenges was managing Federal contracting. What 
internal procedures has the agency implemented to address 
appropriate internal oversight of contractors, that is the key 
word, of contractors working for the Capitol Police?
    Chief Sund. We have implemented internal controls to review 
the contract performance, monitor contracts for the various 
contracts that we have within the United States Capitol Police. 
In addition, we have recently started a program that we are 
going to be rolling across the department that will do those--
more additional internal controls to make sure that we are 
following up on additional comments and recommendations from 
the IG. And those will also apply when it is fully rolled out 
to the contract compliance review. We do review contract 
performance and our performance with the various contracts that 
we have in place right now.
    Mr. Butterfield. Thank you. I encourage you to continue to 
do that, continue to look at the diversity of the agency from 
top to bottom, and make it the most diverse police force in 
America that reflects the people that you represent.
    Thank you. I yield back.
    The Chairperson. Thank you very much.
    The gentlelady from Ohio is recognized for five minutes.
    Ms. Fudge. Thank you very much, Madam Chairperson. Thank 
you all so much for being here. Let me just say that my 
interactions with the Capitol Police have been very, very 
positive.
    Mr. Chairman, if there was something--if there was just one 
thing you could do that would change the morale of this 
department, what would it be?
    Mr. Papathanasiou. Ma'am, thank you. That is a good 
question.
    Actually there are a lot of things I would do to change the 
morale of the Department but, right now, the discipline is, as 
you know, from the previous administrations, been very severe. 
I want to work with Chief Sund to kind of tame down the 
discipline because it has kind of set a different tone 
throughout the agency. And just to show you, those couple of 
termination cases that we had before the Federal Circuit Court 
of Appeals that were decided in our favor, the Department, you 
know, saw it differently than we did, and we prevailed in the 
courts and also with an arbitrator. So, with the Department 
ignoring arbitrators and the Office of Compliance at the time, 
which is now the Office of Congressional Workplace Rights and 
then, you know--now it is in the Federal courts, I think that 
is one avenue to start.
    Ms. Fudge. Okay. Chief, do you or someone in your office 
conduct annual reviews of discipline decisions to determine if 
there are any trends and how these trends are communicated to 
employees?
    Chief Sund. We actually look at how the disciplinary cases 
are reached, probably on a fairly regular basis. When we sit 
down and review the cases, we often will meet with the union, 
and depending on the type of cases they have come up, we will 
review the past history of those types of cases as we are 
implementing or considering what discipline is going to be 
implemented.
    Ms. Fudge. When you see these trends, does it lead to 
additional training? Or how do you address them?
    Chief Sund. If we see something that would require 
additional training, I would absolutely say we need to 
reconsider additional training. One thing that I would look at 
is, you know, what are some alternatives to some of the levels 
of discipline that we have in consideration. But if we do see 
something that would be a concerning trend, we look at whether 
it was a policy or a training violation.
    Ms. Fudge. Okay. Because kind of what I am hearing from the 
Chairman is that training, or lack thereof, is part of the 
problem. Am I right, Mr. Chairman?
    Mr. Papathanasiou. Ma'am, you are absolutely right. Right 
now, the only training that we do get is we qualify twice a 
year with the firearm. Our range policy--a lot of officers have 
an issue with the range policy. We are not allowed to take our 
issued weapon and go to any outside range. You are only allowed 
to shoot at this range. I will give you another example. Our 
active shooter course used to be a 3-day course. They dwindled 
that down to 2 days and now 1 day. So there is a lack of 
training.
    The other training that we do get is basically online 
training. Officers--you have to go to a computer and log in. 
And they just whip through a bunch of exercises or slides, and 
that is pretty much it. So there is a lack of training within 
the Department that I want to see improved.
    Ms. Fudge. Chief, that is something probably we would need 
to discuss sometime going forward. I don't need you to answer 
now. But, clearly, if they are saying they don't get enough 
training, it is something that ought to be addressed.
    Chief Sund. Yes, ma'am.
    Ms. Fudge. Let me just ask you how diversity initiatives 
are incorporated in your recruiting efforts.
    Chief Sund. I am sorry. What was the last part of it?
    Ms. Fudge. How is diversity incorporated in recruiting for 
new officers?
    Chief Sund. Very good.
    Diversity is key. You know, in my 27 years of law 
enforcement, I have had the opportunity to work in a number of 
different--with a number of different agencies and seen the 
value of diversity in thought and diversity in expression. And 
it is something that we value as an agency.
    So, with recruiting, we look at diversity all the way 
through the rank. But specifically for recruiting, we have 
recently worked with--the Chief Administrative Officer, Mr. 
Braddock behind me, has worked with our diversity officer, 
Natalie Holder, to develop and work with our PIO, Ms. Eva 
Malecki, to look at recruiting from a variety of standpoints.
    First of all, we look at our recruiting material. We want 
to make sure that it references a diverse environment, that it 
references the type of applicant we are looking for.
    So we have recently gone and rebranded our recruiting 
material to incorporate the variety of demographics that we are 
looking for--more women, various underrepresented populations. 
So we have redone the recruiting pamphlet.
    The other thing we have noticed is our best recruiters are 
sworn officers. So, recently, we started a collateral 
recruiting program where we have officers that, in addition to 
their regular duty, they go through special training, and they 
become recruiters. They represent a diverse group of population 
so we can send them out and recruit with universities that 
represent diverse populations and underrepresented populations, 
areas that we are seeing diverse populations that we are 
looking to target, and women.
    Just to give a quick idea just how----
    Ms. Fudge. My time is up.
    Let me just, as I yield back, Madam Chairperson, just say 
that I do hear a great deal of frustration on behalf of the 
rank-and-file officers in this department and I hope, Madam 
Chairperson, in our next hearing, we would have a chance to 
address that.
    But thank you so much, Chief. I appreciate that.
    Chief Sund. Yes, ma'am.
    The Chairperson. The gentleman from Maryland is recognized 
for five minutes.
    Mr. Raskin. Madam Chairperson, thank you very much.
    I also want to just salute everybody involved in protecting 
us. The terrible incident that took place at the baseball game 
reminds us that all of us are obviously vulnerable to these 
kinds of attacks, and it is the police officers that are sworn 
to protect us and put themselves in harm's way to protect 
Members of Congress. So we appreciate that on a daily basis.
    Let's see.
    Mr. Papathanasiou, let me start with you, if I could.
    Are there parts of the interim or draft disciplinary policy 
that the FOP and labor disagrees with or would like to see 
changed?
    Mr. Papathanasiou. Thank you, sir.
    Good morning, by the way.
    Mr. Raskin. Good morning.
    Mr. Papathanasiou. Yes. We never got--you know, when we 
were given this policy, it is called an interim guidance now, 
because we didn't get to negotiate with the Department like we 
wanted to. They didn't give us their proposal and full draft so 
we can go back to them, you know, with our proposals. It was 
kind of--I would like to sit down with the Chief and discuss 
some of these policies. Actually, in our full meeting the other 
day, I did ask him to sit down and, you know, look at some of 
these policies. That would be one of them, to revise, and kind 
of tweak some of the policies we have issues with.
    Mr. Raskin. Okay. Chief Sund, is that something you are 
committed to doing to work with Mr. Papathanasiou about that?
    Chief Sund. Absolutely. I am very committed to work with 
the union on that and other issues.
    Mr. Raskin. Okay. Very good.
    Mr. Irving, let me ask you. The Federal Circuit Court of 
Appeals recently issued several rulings against the Capitol 
Police for violating fair labor practices.
    Was the Capitol Police Board aware of this litigation 
status? And do you concur with the decisions of the Court of 
Appeals, or can you explain where you stand with respect to 
these decisions?
    Mr. Irving. Yes, Congressman. The Capitol Police Board is 
certainly aware of the decision of the Federal Circuit Court of 
Appeals and we encourage the Chief to abide by the ruling.
    Mr. Raskin. Okay. I mean, is there a learning process that 
has been put into place do you think that is sufficient so that 
we won't see a repeat of these kinds of decisions?
    Mr. Irving. Yes. I think that, based on the facts, I can 
certainly understand why the case was brought. But there is no 
doubt that there needs to be additional interaction between, I 
believe, the Department and the union on these issues. I am 
very encouraged by, you know, what I am hearing now between 
Chief Sund and Gus.
    So the answer is, yes, it was definitely a lesson learned.
    Mr. Raskin. We have an opportunity with the new Chief for a 
fresh start in terms of labor relations.
    Mr. Irving. Absolutely. And the Board is very encouraged.
    Mr. Raskin. Let me ask you a different question.
    There has been a lot of discussion about the inherent 
contempt powers of the House and questions that I know raised 
about it--first of all, can you clarify, was there ever a 
holding cell within the House of Representatives? Do you know 
that? In the 19th century when----
    Mr. Irving. A lot of folklore.
    Mr. Raskin. Yeah.
    Mr. Irving. Not that I am aware of. We use the Capitol 
Police holding cell, frankly.
    Mr. Raskin. Okay. Can you explain, then, exactly how that 
works? I had a lot of constituents in the last Congress, kids 
who were arrested sitting in about gun safety legislation, and 
so on. They went to Speaker Ryan's office, and they were 
arrested. I ended up going down to--I guess it was one of the 
police districts in the District of Columbia, in Anacostia, to 
get them out late at night. But what is the--explain the 
procedure when someone gets arrested, say, in a civil 
disobedience----
    Mr. Irving. I am going to turn some of that over to the 
Chief, if you don't mind, to give the----
    Mr. Raskin. Sure.
    Mr. Irving [continuing]. Specific procedures. I do remember 
that particular case. I think they were a juvenile group.
    Mr. Raskin. Yes.
    Mr. Irving. And then there was a very different set of 
circumstances, and they were treated very differently than 
adults. But, Chief, do you want to elaborate a little bit on 
the procedure?
    Chief Sund. Absolutely. Thank you very much for the 
question, sir.
    Our offices are extremely well trained in handling civil 
disobedience cases. Usually, what will happen is we have civil 
disobedience that occurs outside. We have civil disobedience 
that often occurs inside. We will work with the organizer. We 
usually touch base with the organizer to get an idea what the 
intent is.
    But once the people begin to violate the law, they will go 
through a couple different warnings depending on the type of 
violation. But usually, whether they are obstructing a hallway 
or chanting, they usually get three notices that they are 
getting ready to be placed under arrest. The organizers 
understand it. We talk to them ahead of time. We tell them 
exactly what is going to happen. We will get to the third 
arrest. Usually, at that point, you see the people that we will 
actually be arresting take a certain stance. The others will 
back away, because they want to make sure they know they are 
not going to get arrested. Our officers move in. We rarely ever 
receive complaints. Our officers are very polite.
    Mr. Raskin. Do you handcuff?
    Chief Sund. Yes, we do. Yes, we do. We either use handcuffs 
or flex cuffs. It is a safety requirement. And then we will 
move them either down into a processing facility at 119 D 
Street or our mass processing, or sometimes we will, depending 
on the number, we will use a citation release program.
    Mr. Raskin. So there is no holding area in the Capitol?
    Chief Sund. Not in the building itself, sir.
    Mr. Raskin. Okay. I yield back.
    Thank you, Madam Chairperson.
    The Chairperson. The gentleman's time has expired.
    I would like to recognize the Ranking Member for his 
opening statement before we go to him for questions.
    Mr. Davis of Illinois. Madam Chairperson, thank you very 
much. Madam Chairperson, I apologize for being late. The 
problem with having two Committees. But I am really honored to 
be here today. I really want to welcome Chief Sund to the first 
hearing. I hope it is going well. It only goes downhill from 
here.
    Look, based on your performance over the last few years, I 
am looking forward to working with you in your new position. I 
can't think of anybody more qualified and with the unanimity of 
support coming in since I have been here. So those are some 
great credentials, but also high hopes. We have a lot faith in 
you, Chief Sund.
    I do want to thank the Sergeant at Arms, Mr. Irving. You 
know, you have always been there, been willing to talk to me 
about issues throughout this Committee and throughout my tenure 
in Congress. Thanks for your service and thanks for being here.
    Mr. Bolton, thank you for your oversight. It gives us an 
opportunity to be better members of the oversight panel.
    And then also Gussy Papa--Big Papa. Thanks, man. You do a 
great job as a chair. I can't tell you how many times I see you 
out there talking one on one, working hand in hand with the 
folks that you represent and that, to me, shows true 
leadership. Your members should be proud to have you as their 
Chairman. I am proud to call you my friend.
    I want to thank everyone for what you do for the Capitol 
Police. And having oversight of the Capitol Police is very 
special to me because I can tell you, without the bravery of 
your officers, the men and women who make up the Capitol 
Police, I wouldn't be standing here today, because being on 
that baseball field in June 2017, I can tell you I have never 
been so terrified in my life. But to see the training, the 
courage of David Bailey and Crystal Griner to fire back at a 
crazed gunman. I am going to be honored today to be with my 
colleague Mr. Raskin when he presents another award to those 
two heroes.
    When I am ever asked, ``Who are your heroes in life,'' you 
don't get further than David Bailey and Crystal Griner. They 
did the Capitol Police the best that anyone could ever ask for 
in a terrible situation like that. They did what they were 
trained to do and that, to me, shows what the men and women of 
the Capitol Police are all about. You should be very proud of 
them, as I know I am. I know you are and all the fellow 
officers are.
    I believe that every officer that makes up the Capitol 
Police force, if put into that same situation that David and 
Crystal were put in, they would do the exact same thing, and 
all of us would still be here.
    The most important mission that you do on a daily basis is 
to prevent a similar act like that from occurring. I think you 
guys do a great job, not without criticism that we will often 
bring, but with questions. The criticism is questions and 
Members will have a lot of questions but thank you for your 
openness and willingness to address those issues, and thanks 
for making us and the many millions of visitors that come every 
year feel safe too.
    We do take our oversight responsibilities very seriously, 
and that is why you are here today. I have been clear and 
consistent in laying out what I believe our oversight 
expectations are. First, we want to improve communications with 
Member offices. Second, we want to build a strong culture of 
service in everything that you do. Third, we want to 
institute--we want to see you institute commonsense processes 
and procedures. Mr. Irving and Chief Sund, this expectation, in 
particular, should be kept in mind during garage security 
implementation as well as the use of the Joint Emergency 
Communication System.
    Finally, we hope you ensure the House is getting a return 
on investment for the additional resources that you receive. 
With additional resources come additional expectations. All of 
you have laid out important priorities for the 116th Congress. 
I look forward to continue to work with each and every one of 
you. I am honored to know each and every one of you. I am 
honored to get to know every member of the Capitol Police force 
that serves this great institution.
    Thank you for the privilege of allowing me to serve. Thank 
you for what you do.
    And I will yield back, Madam Chairperson.
    [The statement of Mr. Davis of Illinois follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. The gentleman yields back but is now 
recognized for five minutes for his questions.
    Mr. Davis of Illinois. Well, I didn't know showing up late 
I get 10 minutes. This is awesome.
    The Chairperson. Ten minutes, but not in a row.
    Mr. Davis of Illinois. I will try not to make this a common 
occurrence.
    Well, thank you.
    Chief Sund, congratulations again on your appointment. I 
enjoyed getting to know you before you were Chief, and I am, 
again, really looking forward to working with you in your new 
capacity.
    I know you laid out in your testimony, you know, what you 
expect out of the Capitol Police. But what is your vision and 
what might you--what haven't you said already that could help 
us lay out that vision and make sure that we provide the proper 
oversight for you to be able to do your job?
    Chief Sund. You know, ensuring the preparedness of the 
officers out in the field is probably my biggest initiative. 
Ensuring that they have got the right equipment, ensuring that 
they are--the morale is a major issue. But making sure that 
they are getting the proper training and the proper equipment 
that they need to do their job.
    The concerns with cybersecurity, the concerns with the 
increasing threat is a major initiative. I am working closely 
with our Protective Services Bureau and the House Sergeant at 
Arms on ways we that can improve Member security off campus. 
They do an outstanding job working with the House Sergeant at 
Arms and the program they have in place to evaluate and assess 
the different events that the Members are involved with and for 
law enforcement coordination. Looking at ways that we can 
enhance that in the future I think is going to be key as we are 
looking at the various threat increases out there in the field.
    And then the professionalism and the training of upper 
leadership. I want to look at some opportunities that we have 
out there, both through some of the universities that are out 
there, Center for Homeland Defense and Security, for getting 
some additional training opportunities for our leadership and 
develop their--broadening their skills and their horizons.
    Mr. Davis of Illinois. Well, thank you, Chief Sund. I am 
glad you brought up professionalism. As we have seen, some 
members of the Capitol Police force have not acted in a 
professional manner. But, clearly, as our institution, also we 
clearly see examples of fellow Members of Congress not acting 
in a professional manner. But those are the exceptions. I want 
people to remember that when we talk about the brave men and 
women of the Capitol Police.
    Mr. Chairman, Big Papa, do you believe the CBA in its 
current form is sufficient to address all labor issues between 
the Capitol Police and the FOP, particularly those involving 
contentious termination decisions?
    Mr. Papathanasiou. Mr. Davis, thank you for that question 
and for the kind words earlier.
    In regard to the CBA, in my recent meeting with the Chief, 
actually, our first formal meeting, I did present him with an 
MOU to basically rip out the back page and for him to sign and 
me to sign it, continue with this contract as is, and then have 
a little cooling-off period and try to start negotiating again. 
Both our teams are--actually, their negotiating team doesn't 
exist anymore. I think some have retired or aren't even here 
anymore. Our negotiating team has gone--one has been promoted; 
one is leaving the Department. So I think we need two new 
negotiating teams set forth. In the meantime, I asked for him 
to look at the MOU I presented him with. And the ball is in his 
court right now, so that is where we are at currently with the 
CBA.
    Mr. Davis of Illinois. I think we all agree that the 
current CBA is not sufficient to address some of the issues, 
especially with litigation----
    The Chairperson. Right.
    Mr. Davis of Illinois [continuing]. That we have seen. I 
would encourage the Chief and the Chairman and Mr. Irving and 
the Capitol Police Board to be engaged in this process. I think 
all of us up here would like to see a new agreement. We 
certainly hope you can sit down and hammer that out. I think it 
is the best thing for all of us. It is the best thing for all 
of you and continue to move forward.
    Again, thank you very much for what you do. I appreciate 
the time that you spend making this campus safe, and I 
appreciate the heroism and the bravery of David and Crystal and 
all the Capitol Police who do their job every day.
    I yield back.
    The Chairperson. The gentleman yields back.
    I will just offer a couple of comments. First, all of us 
have praised the dedication and bravery of the Capitol Police. 
There was once a Member of Congress, Representative Mo Udall, 
whose famous line was, ``Everything has been said, but not 
everyone has said it.'' So I would like to join in those 
comments of gratitude that we all feel to all of you for what 
you do to keep us safe.
    One of the things that we hope we can accomplish, noting 
that the Chief has been in this position for a grand total of 
33 days, is to make some improvements in the structure so that 
the entire police force can feel supported and so that morale 
can be good. You know, we have been without a contract for 
almost 10 years, which is really astonishing. Hopefully, as I 
said in my opening statement, we can address that issue. I 
think that that--not having an MOU that is current--causes a 
whole host of problems. In my experience with employees, 
knowing what the rules are and knowing that they are evenly 
applied goes a long way toward people feeling good about what 
they are doing. Understanding what consequences are and having 
a sense of transparency is very important in any workforce, in 
any environment. So I know that that is something that the 
Chief is going to strive for. And we hope that we will be 
supportive of you as you work toward those important goals.
    We have continuing changing threats, as has been mentioned, 
all the way from cyber threats to increasing polarization 
politically in the country that lead to people who are on the 
margins feeling empowered to do things that they might not 
otherwise have thought of doing. That poses a threat across the 
country and certainly here in the Capitol. We do appreciate the 
efforts that you make to make sure that that element is 
adequately dealt with.
    With that, I would ask that members submit any further 
questions that they may have in the next five days and we will 
keep the record open for that purpose.
    I thank the witnesses for appearing and all the Members for 
their participation and, without objection, this hearing is 
adjourned.
    Thank you very much.
    [Whereupon, at 11:04 a.m., the Committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
